IN THE
SUPREME COURT OF THE UNITED
STATES

James Beggs, Joyce Beggs, et al”

Petitioners

Vs.
Respondents

Beverly Story et al,

Appendix
FOR
WRIT OF CERTIORARI

Pro’se James Beggs
Pro’se Joyce Beggs
312 South Willard Ave
Hampton, Virginia
757 265 7784

A-l
Appendix A
Order From the Virginia Supreme Court
Denying Petitioners Appeal No: 190102
November 21, 2019 with No Reply from Respondent
Beverly Story

VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of
Richmond on Thursday the 21st day of
November, 2019.
James Beggs, et al,
Against
Record No. 190102
Appellants.
Beverly Storv.

Appellee.

From the Circuit of the Citv of Virginia Beach
On consideration on the petition of the
appellants to set aside the judgment rendered
herein on August 27. 2019 and grant a
rehearing therefo, the prayer of the said petition
is denied.
A Copy. Test
Douglas B. /Robelen, Clerk
Signed/ by a Deputy Clerk
The Petitioner Joyce Beggs unable to
Recognized signature to print said deputy name.

A-2
Appendix B
Virginia Supreme Court
Granting Petitioners Motion for Hard copy to make is
easy for Reply to stop Civil Terrorism Respondent Reply
Appeal No: 190102
October 31, 2019 with No Reply from Respondent Beverly
Story

VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of
Richmond on Thursday the 31st day of October,
2019.
James Beggs, et al.
Record No. 190102
Against
Appellants. Beverly Story. Appellee
Upon a Petition for Rehearing
On September 5, 2019, came the appellants,
who are self-represented, and filed a ‘motion
filed a petition for a rehearing in hard copy. On
September 16, 2019 came again the appellants,
and filed a “motion to file a hard copy [and]
motion for an injunction stop civil terrorism” in
this case. Upon consideration whereof, the
Court grants the motion to file hard for
rehearing and the September 5, 2019 petition
for rehearing is deemed to be file. Upon further
consideration, the motion for an injunction is
denied. A Copy. Test Douglas B. /Robelen,
Clerk_Signed/ by a Deputy Clerk
“The Petitioner Joyce Beggs unable to
Recognized signature to print said deputy
name”.

A-3
Appendix C
Supreme Court
Denying Petitioners Order Grant Petitioners Hard copy
for Injunction Appeal No: 190102
August 27, 2019,
with No Reply from Respondent Beverly Story

VIRGINIA:
__ In the Supreme Court of Virginia held at the
Supreme Court Building in the City of
Richmond on Thursday the 27st day of August2019.
James Beggs. et al.
Against
Appellants.

Record 190102

. CL16004672-00

Beverly Story.

Appellee.

Upon a Petition for Rehearing
Upon review of there record in this case and
consideration of the argument submitted in
support of the granting of an appeal, the Court
is of the Opinion there is nor eversible error in
judgment complained of. Accordingly, the Court
refuses the petition for appeal
A CopyTest
Douglas B. Robelen, Clerk
Signed/ by a Deputy Clerk
The Petitioner Joyce Beggs unable to
Recognized signature to print said deputy
name.

A-4
Appendix D
Order From the Virginia Supreme Court
Leave to Amend Petitioners Appeal No: 190102
April 2, 2019 having Leave until April 23, 2019 with No
Reply from Respondent Beverly Story

VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond
on Tuesday the 2nd day of April 2019.
James Beggs, et al.
Against
Record No. 190102
Appellants.
Beverly Story,

Appellee.

From the Circuit of the City of Virginia Beach
On January 29. 2019 came the appellants, who
are self-represented, and filed a motion seeking
leave to file an amended petition for appeal in
this case. Upon consideration whereof, the court
grant the appellants leave to file an amended
petition and the appellants’ Third Amended
petition for appellants received on March
18.2019 is considered files. The appellee shall
have until April 23, 2019 to file a Brief in
Opposition, if she is so inclined.
A Copy. Test
Douglas B. /Robelen,-Clerk

-----

^

The Petitioner Joyce Beggs unable to Recognized
signature to print said deputy name.

A-5
Appendix E
Virginia Court of Appeals
Order 0054-18-1
The first Court Order Realize
Jurisdictional Violation.

VIRGINIA:
In the Court of Appeals of Virginia on Tuesday the
26th day of June. 2018
Joyce Beggs and James Beggs
Against

Appellants

Record No: 0054-18-1
Circuit No: CL16-4672

Beverly Story

Appellee.
From The

Circuit Court of the City of Virginia Beach
It appears that this Court does not have
Jurisdiction over this case. Accordingly, the case
herby is transferred to the Supreme Court of
Virginia pursuant to code 8.01-677.1

A Copy,
Teste: / Signature of Deputy
Cynthia L. McCoy, clerk By: a Deputy Clerk
“Petitioner Joyce Beggs cannot recognized deputy
name.”

A

A-6
Appendix F
Petitioners Filed Case 16-4672 Before Beverly Story
and Paid Filing Fees to have their Petitioner for
Adoption filed December 15, 2016. Over looked by
Virginia Supreme Court.
t
Affidavit Before Notary Public
A Agreement for Adoption
In Witness Whereof, The natural Father of Infant
Lauryn Courtney Beggs’ Cornelius Courtney Beggs
‘aka” Bobbitt and James Beggs & Joyce P. Beggs, an
A agreement in Adopting said Infant.
/Cornelius Courtney Beggs aka Bobbitt Seal
State of Virginia in the Country/City of /Virginia
Beach, to-wit I, the undersigned, a Notary Public in
and for the City and state aforesaid do hereby certify
that Cornelius Courtney Beggs aka Bobbitt whose
foregoing writing, has acknowledged the same before
me in the City of State aforesaid. Given under my
hand the 20th day of December 2016 Seal Vincen R.
Harris Notary Public Reg. # 7621317 My Commission
Expires 07/31/2018 Harris Notary Public, Reg.
/James Beggs (Seal)
/Joyce Beggs (Seal)
State of Virginia in the Country/City of Hampton, towit: I the Undersigned, a Notary Public in the City and
stat aforesaid do hereby certify that James Ronnie
Beggs & Joyce P. Beggs whose is signed to the
forgoing writing, has acknowledged the same before
me in the City of States aforesaid. Given under my
hand the 24th day of December, 2016 My Commission
Expires April 30, 2020 Artia Denelle Bales Notary
Public,'Reg. No. 7693997 Courtney Beggs stipulations
of said Adoption Agreement given to James Beggs and
Joyce Beggs with his Attorney handling all Adoption
Matters of Lauryn Beggs

A-7
Appendix G
VIRGINIA: IN THE CIRIUT COURT FOR The
City VIRGINIA BEACH. BEVERLY STORY
plaintiff V. LAURYN C. BEGGS, a minor,
Defendant CASE NO: CJ1763
Serve: Cornelius Beggs-#1845077
Virginia Beach City Jail
2501 James Madison Blvd
Virginia23456

Notice of Hearing
PLEASE TAKE NOTICE that on
Friday, July 21, 2017 a 9:30 a.m. or as soon
thereafter as counsel may be heard, Plaintiff
shall request the Motion to Dismiss the Appeal
for Visitation and Custody for the Minor child,
Lauryn Beggs.
BEVERLYSTORY
Signature /PAULETTE FRANKLIN- JENKINS
VSB#443486
Counsel for Plaintiff

ERICO O. MOODY & ASSOCIATERS, P.C.
355 Crawford Street suit 810
Portsmouth, Virginia 23704
Office: 757 399-7683
Email XXXXXXXX

A-8
Appendix H
Petitioner Motion for a Restraining Order Case
Against Officer of the Court Attorney Paulette D. JenkinsFranklin No: CL 16-467 Virginia Supreme Court No: 190102

Virginia: IN THE CIRCUIT COURT FOR THE
CITY OF VIRGINIA BEACH
IN RE: Appointment of Guardian of Person &
Estate of Lauryn Beggs, a Minor
James Beggs Paternal Grandfather
Joyce Beggs Paternal Grandmother
Beverly Story, Maternal Grandmother
CASE NO CL 16-4672
Vs Lauryn Beggs
Restraining Order
This cause to be heard upon Motion to Gran(t) a
Restringing Order to Protect Federal Military
Records of James Beggs and his son Cornelius
Beggs from the hands and eyes of Paulette D.
Franklin Officer of the Court in her New
Employment at the U S Department of Defense.
In the interest of Department of Homeland
Security, and Federal Protection over Military
Records. It is hereby ADJUGE, ORDERED, and
DECREED moving the Courts to Motion Gran(t)
A Restringing Order to Protect Federal Military
Records of James Beggs and his son Cornelius
Beggs from the hands and eyes of Paulette D.
Jenkins Franklins Officer of the Court in her New
Employment at the U. S. Department of Defense,
in the interest of Department of Homeland
Security, and Federal Protection over Said
Military Records by________________
Kept away from Judge “no date no Signature

A-9
Appendix I

Writ of Certiorari
Jurisdiction Statement
The United States Supreme Court has
complete overall Jurisdiction said Complex
Cases under Section 241 and 242 of Title 18 to
stop Civil Rights Violations and “Fraud of the
Court and Conspiracies against the Historical
Virginia Court Systems that with Respondents
Actions Voided Acts of Congress against a Black
Republicans like Petitioner Joyce Beggs, who
are a Mixed Race Couples. Voiding out a U. S.
Veteran Constitutional and Human Rights,
Federal Jurisdiction and Presidential Executive
Orders by Cruel and Unusual Treatment and
Behaviors. Under 28 U.S.C. 1257. (a) State
courts; certiorari Final judgments or decrees
rendered by the highest court of a State.
Therefore Gives this Honorable Court the
Jurisdiction to stop continued Fraud on the
Courts and Civil Terrorism of all past and
continued cases Petitioners has suffered from by
Officers of the Court, Respondent Cunningham
Lindsey U. S. Inc., in Respondent Beverly Story
et al, Under the Following:
Under 28 U.S.C. 2104. -Reviews of State court
decisions -A review by the Supreme Court of a
judgment or decree of a State Court shall be
conducted in the same manner and under the
same regulations, and shall have the samp
effect, as if the

A-10
judgment or decree reviewed had been rendered
in a court of the United States.
28 U.S.C. 1257. (a) State courts; certiorari
Final judgments or decrees rendered by the
highest court of a State.
28 U.S.C. 1254. Courts of appeals; certiorari;
certified questions Cases in the courts of appeals
may be reviewed by the Supreme Court.
Along with the complete exhaustion of all
Virginia State Court Remedies under 28 U.S.C.
1254 that gives all Petitioners “no” further
remedies in their State of Virginia Court
Systems and needing this Court to remove
Petitioners appealed Case from Newport New
Federal Court in “James Beggs and Joyce Beggs
Vs. Cunningham Lindsey et al Case No :4:17-cv00110" they Appealed to the U. S. Fourth
District Court of Appeal No: 19-1859 to address
all Respondents involved from the same
Transaction of Conspiracy against a Black
Republican and her Family Members under 18
U.S. Code § 241 and 242.
Giving the United States Supreme Court
Total Federal Jurisdiction overall said complex
cases arising from the same tractions of
unnecessary hateful actions of conspiracy
against all Petitioners using Fraud on the Court
with plots to undermine all Judges and Justices
of the Historical State of Virginia, with violations
under the Six Amendment.

A-ll
Showing Petitioners son suffered actions that
voided President Obama Executive Orders 13625
attached, to support Petitioners Oral Augment
before this Court that voided Acts of Congress,
the Patriot Act, FEMA, Veteran Bills, and
Presidential Proclamations, that voided of the
needed Statistic Information that is Federally
Mandated for collection under Federal Programs
by Acts of Congress, and Presidential Executive
Orders; to improve the Life’s and Health Care for
all Veterans. With this Court being an Aid to all
Veteran men and woman seeking the needed
Mental Health Care Respondents Officers of the
Court used as a Legal Strategies. That voided all
Petitioners their U. S. Constitutional Rights
Giving this Court Review over Jurisdictional
Deal Plea made against a Sick Veteran suffering
from War Injuries in Bad Faith in the Virginia
Beach Circuit Court No. CR17-001285, OCA File
Number VAB16-05667 November 13, 2019 in
Commonwealth v. Cornelius Beggs.
Voiding
the Petitioners their Military Power of Attorney
and Voided of all information about Plea Deal to
be notified and nor were the Petitioners Notified
to be present at all Motions. Petitioners send
forth a Timely Appeal to Virginia Beach Circuit
Court be reviewed in this complex cases, that
arrives from the same Transactions that Voided
the Petitioners Military Power of Attorney over
“Said Veteran” that cased all Petitioners cases to
end in a Miscarriage of Justice under Federal
Law

J

A-12
against Petitioners who are a Mixed Couple
citing Loving V State of Virginia citing the
Following:
Section 28 USC 2255(a) (b) — Federal
custody; remedies on motion attacking
sentence to Release Cornelius Bobbitt
Beggs Returning his back to the Veteran
Hospital.
A prisoner in custody under sentence of a
court established by Act of Congress claiming the
right to be released upon the ground that the
sentence was imposed in violation of the
Constitution or laws of the United States, or that
the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court
which imposed the sentence to vacate, set aside
or correct the sentence.
Under Title 28 §2283. Stay of State court
proceedings A court of the United States may not
grant an injunction to stay proceedings in a
State court except as expressly authorized by Act
of Congress, or where necessary in aid of its
jurisdiction, or to protect or effectuate its
judgments.
2255. (a) Federal custody; remedies on motion
attacking sentence
As all said Abuses of Powers can undermine the
United States of America and said Military Base
Personal Operations and Virginia Court Systems

A-13
Therefore the U. S. Supreme Court has full Judicial
Powers needed to apply Federal Laws to protect all
Petitioners and their Families Federal
Constitutional Rights over all cases by their Own
Discretion.
USC 28 2102. Priority of criminal case on
appeal from State court.
Criminal cases on review from State Courts shall
have priority, on the docket of the Supreme Court,
over all cases except cases to which the United
States is a party and such other cases as the court
may decide to be of public importance.
U. S. Supreme Court has Jurisdiction over said
pending case from Newport New Federal Court in
Norfolk in “James Beggs and Joyce Beggs Vs.
Cunningham Lindsey et al Case No: 4:17-cv-00110.
Pending in the U. S. Fourth District Court of Appeal
No: 19-1859.
With Respondent Cunningham and Lindsey U S
Inc. causing a Conflict of Interest being a major
player of Plots under 18 U.S. Code § 241 and 242
against Petitioners that is undecided using a Federal
Program of FEMA against the Petitioners from
Virginia Beach Company to injures them Financially
using the same suffering in U. S. Supreme Court
Case No 06-931 & 20-5307 in this Complex Cass
having Jurisdiction also under the Patriot Act.

A

A-14
Petitioners are Christians and do not want
prison times; but fines at this Court Discretion,
with Community Service to Volunteer and
Orders to watch 2 hours of “C Span” that is
Watched by American Citizens and Native
Americans across the United State to learn to
respect both sides of all debates in Congress as
Legislation becomes Laws, to Respect Federal
Constitutional Rights and Acts of Congress to be
an As this Court Will be a needed Aid in the
Petitioners Jurisdictions.
Holding Respondent Cunningham Lindsey U. S.
Inc.; totally Responsible for Petitioners Financial
Settlement in Case No: 4:17-cv-00110. Judgment
to Petitioners under 42 U.S.C. 1983.
"I declare (or certify, verify, or state) under
penalty of perjury that the foregoing is true and
correct.
/James Beggs
/Joyce Beggs
February 26, 2020.

A-15
Appendix J Emergency Power of Attorney
Used for Military Power of Attorney Federal Protected

Dated August 4, 2016
I, Cornelius Courtney Beggs aka Bobbitt, the
undersigned of this Emergency Power of
Attorney to take affect immediately on my
behalf, do hereby confer to giving full Power of
Attorney on August 1, 2016 as I seek Justice in
Defense of Surprised Attack sustained against
my Life July 20, 2016. This said Power of
Attorney is “thereinby resigned by me “Cornelius
Courtney Beggs aka Bobbitt” August 4, 2016 to
include date of Notary Public with the Date and
Signature.
Whereas, I Cornelius Courtney aka Bobbitt < is
the Parents and Main Care Giver of Lauryn
Courtney Beggs > “who both suffered a surprised
and unprovoked attack on his person, while in
the direct Physical Care of my infant “ Lauryn
Courtney Beggs” July 20, 2016 and seeking the
proper safety and protection for my life, under
the United States Constitution in the Religious
State of Utah until all responsible Parties direct
and indirectly involved or investigated.
Giving said Legal Power of Attorney over all my
Financial Responsibilities to my said Parents “
James Beggs and Joyce Beggs of 312 South
Willard Ave, Hampton Virginia 23663, as true
and lawful attorney-in-fact for me and in my
name, place, and stead, and on my behalf and for
my use and benefit, regarding all my Financial
Affairs.

A-16
Continued of Appendix J
Obtaining a Lawyer on my Behalf and that of
Emergency Custody of my infant child “Lauryn
Courtney Beggs.”
In Order to protect the safety of said child as
stated in said Appointments of Guardia.
FIRST: To ask, demand, litigate, and receive all
manner of goods, chattels, debts, rent, interest,
sums of money, and demands whatsoever, due or
hereafter to become due, and owing, or belonging
to me, and to make, give, and execute
acquaintances, receipts, satisfactions or other
discharges for the same, whether under seal or
otherwise; regarding all my financial Affairs.
Obtaining a Lawyer on my Behalf and that of
Emergency Custody on their behalf “My Parents
James Beggs and Joyce Beggs” to maintain
Emergency Custody of my infant Child “Lauryn
Courtney Beggs” to Order to protect the safety of
said child in said Appointment of Guardian.
SECOND: To Make, execute, endorse, accept and
deliver in my name of my aforesaid attorney all
checks, notes, drafts, warrants, acknowledgment,
agreements and all other instruments in writing
of what ever nature, as to my said attorney-infacts mat be necessary to conserve my interest;
regarding all my Financial Affairs, Obtaining
Lawyer on my behalf and that of Emergency
Custody on their behalf “ My parents James
Beggs and Joyce Beggs” to maintain Emergency
Custody of my infant child Lauryn Courtney
Beggs” to Oder to Protect the safety of said child
as stated in said Appointment of Guardia.

A-17
Continued of Appendix J
THIRD: To execute, acknowledge and deliver any and
all contracts, debts, leases, assessments of Mortgage,
extension of Mortgage, satisfactions of Mortgage,
releases of mortgage, subordination agreements and
any other instrument or agreement of any kind or
nature whatsoever, in connection therewith, and
affecting any and all property presently mine or
hereafter acquired, located anywhere, which to my said
attorney-in-fact may seem necessary or advantageous
for my interest; regarding all my financial Affairs,
Obtaining a Lawyer on my Behalf and that of
Emergency Custody on their behalf “My Parents James
and Joyce Beggs” to maintain Emergency Custody of
my infant child “Lauryn Courtney Beggs” to order to
protect the safety of said child as stated in said
Appointment of Guardia.
FOURTH: To enter into and take possession of any
land, real estate, tenements, house, stores or building,
or part thereof, belonging to me that may become
vacant or unoccupied, or to the possession of which I
may be or may become entitled, and to receive and
take for me and in my name and to my use all or any
rent, profits or issues of any real estate to me
belonging, and to let the same in such manner as to my
attorney shall seem necessary and proper, and from
time to time to renew leases; regarding all my financial
affairs, Obtaining a Lawyer on my Behalf and that of
Emergency Custody on their behalf “My Parents James
and Joyce Beggs” to maintain Emergency Custody of
my infant child “Lauryn Courtney Beggs” to order to
protect the safety of said child as stated in said
Appointment of Guardia.

A-18
Continued of Appendix J
FIFTH: To commence, and prosecute on my
behalf, and suits or actions or other legal or
equitable proceeding for the recovery of any of
my land or for any goods, chattels, debts, duties,
and demand cause or thing whatsoever, due or to
become due or belonging to me, and to prosecute,
maintain and discontinue the same, if he or she
shall deem proper; regarding all my Financial
Affairs, Obtaining a Lawyer on my Behalf and
that of Emergency Custody on their behalf “My
Parents James and Joyce Beggs” to maintain
Emergency Custody of my infant child “Lauryn
Courtney Beggs” to order to protect the safety of
said child as stated in said Appointment of
Guardia.
SIXTH: To take all steps and remedies necessary
and proper for the conduct and management of
my Business affairs, and for the recovery,
receiving, obtaining and holding possession of
any land, tenements, rents or real estate, goods
and chattels, debts, interest, demands, duties,
sum or sums of money or any other thing
whatsoever, located anywhere, that is, are or
shall be, by my said attorney-in-fact, thought to
be due, owing, belonging to or payable to me in
my own right or otherwise, regarding all my
finial Affair, Obtaining a Lawyer on my Behalf
and that of Emergency Custody on their behalf
“My Parents James and Joyce Beggs” to
maintain Emergency Custody of my infant child
“Lauryn Courtney Beggs” to order to protect the

A-19
Continued of Appendix J
SEVETH: To appear, answer and defend in all
actions and suit whatsoever that shall be
commenced against me and also for me and in
my mane to compromise, settle and adjust, with
each and every person or persons, all actions,
accounts, dues, and demands, subsisting or to
subsist between me and them or any of them,
and in such manner as my said attorney-in-fact
shall think proper: herby giving to my said
attorney power and authority to do, execute and
perform and finish for me and in my name all
these things that shall be expedient and
necessary, or which my said attorney shall judge
expedient and necessary in about in and about or
concerning the promises, or any of them, as fully
as I could do if personally present, hereby
ratifying and confining whatever my said
attorney shall do or cause to be done in, about or
concerning the premises and any part thereof
any financial and mattered of Custody and
Powers conferred on said attorney-in-fact shall
not be
restricted,
or limited by the
aforementioned
specifications
regarding;
situations of representation.
The rights, powers and authority of said
attorney-in-fact granted this instrument shall
commence and be in full force and effected in
August 1, 2016, and such rights, powers and
authority shall remain in full force and effected
thereafter until I give notice in writing that such
power is terminated. Noting, that Said Power of
Attorney of said Custody and Protection,

A-20
Continued of Appendix J
were giving by me Cornelius Courtney Beggs
aka Bobbitt to my Parents James Beggs and
Joyce Beggs of behalf of my infants Child
“Lauryn Courtney Beggs” July 20, 2016. It is
My Desire, and I so freely State, that this
Power of attorney shall not be affected by any
subsequent disability or incapacity The
Signature of Cornelius Courtney Beggs aka
Bobbitt.
I Cornelius Courtney Beggs aka Bobbitt, whose
name is signed to the foregoing instrument,
having been duly qualified according to the
law: do hereby acknowledge that I signed and
executed this power of attorney: that I am of
sound mind; that I am eighteen (18) years
older or older; that I signed it willingly and am
under no constraint or undue influence; and
that I signed it as my free and voluntary act
for the purpose therein expressed.
Signature /Cornelius Beggs Date 8-4-2016
I certify that /Signature Cornelius Beggs has
appeared before me this day of Date 8-1-2016
in the State of Utah
My commission expires on 4-22-2020
State of Utah County of Emery Date 8-4-2016
Janalee Luke Notary Public of State of Utah
Commission #688582
Comm. EXP. 04-22-2020

A-21
Appendix K
Appointment of Guardia
Whereas, I Cornelius Courtney Beggs aka Bobbitt
< is the Parent and Main Care Giver of Lauryn
Courtney Beggs> who both suffered a surprised
and unprovoked attack of his person while in the
direct Physical Care of my infant “Lauryn Beggs”
July 20, 2016.
Whereas, I Cornelius Courtney Beggs than gave
Emergency Custody to my Parents James and
Joyce Beggs of 312 South Willard Ave Hampton
Virginia the Morning of July 20, 2016 to protect
said infant Lauryn Courtney Beggs Life. Asking
my Father James Beggs “to protect my Infant,
said Lauryn Courtney the Morning of said
surprised attack against my life while in the
direct custody of said infant Lauryn Beggs.
I Cornelius Courtney Beggs saved Said the infant
and self from “said surprised attack and after said
attack on my life, seek Proper Safety for my life
and protection in the Religious State of Utah until
all said Responsibly Parties “direct or indirectly
involved in; Surprised Attack 7/20/2016 along and
their Motives suffered on the morning of July 20,
2010 can, been investigation and all parties
Brought To Justice.
I Cornelius Courtney Beggs aka Bobbitt is the
Natural Guardian of Lauryn Courtney (age) 6
Months (Date of Birth) January 20, 2016. Give
full Guardianship of my Infant Lauryn Courtney
Beggs to my Parents James Beggs and Joyce
Beggs of 312 South Willard Ave. of Hampton

A-22
Continued from Appendix K

Appointment of Guardia
Virginia 23663 to act as guardian of said minor
child stated above upon my inability to so act as I
seek protection and fundamental fairness in the
“State of Utah” on behalf of said father’s Right’s
in the “State of Virginia” until conclusion of said
surprised and “unprovoked” attack on Cornelius
Courtney Beggs and Lauryn Courtney Beggs Life
while seeking the help of a lawyer t protect his
Rights. Should James and Joyce Beggs be
unable or unwilling to serve, I appoint the State
of Virginia to find Forest Care Family to act as
the guardian of the minor children in place of
James Beggs and Joyce Beggs to provide needed
protection, safety, to protect the welfare of said
infant.
I certifying said Parent in Hampton Virginia
provided full cores meals, which gave them the
opportunity to be directly involved in the daily
Life of myself and said Infant on a daily basics.
I certify That I care for the Daily of said Infant in
Virginia Beach and my Nice in Hampton
Virginia.
I certify Beverly Story was just hired recently as
said infant Babysitter Only during working
hours only.

A-23
Continued from Appendix K

I Attended Church revises at Phoebus United
Methodist Church on 300 E. Mellen Street in
Hampton Virginia with said Infant and Nice in
Places of said parents as said father were on
TDY Military Assignment in Hawaii weeks
before attack on my Life 20, 2016.
Upon my designed guardian shall have the
following authority while obtaining my Parental
Rights as stated: a. Residential Custody of the
minor child b. to approve medical treatment of
any kind or type or disapprove that same within
the bounds of the Law.
c. to designate
schooling for the minor children, and access to
any and all of their educational records, d. To
generally act in loco parentis et al.
In the event My Infant Lauryn Courtney Beggs
becomes the Custodian of any Property for the
minor child under the Uniform Transfer to
Minor Act or the Uniform Gift to Minors Act for
all such Custodian property in the Protection
under Court Appointed Guardian Ad Litems
Cynthia King Esq. In the Event that formal legal
processing are commenced to establish a
guardian for my said infant child, it is my desire
that the Guardians Mentioned herein have
priority in appointment.
The failure to list Other Individuals as a
guardian or successor Guardian is intentional to
protect said, said Infant Lauryn Courtney Beggs
Health and needed Protections until the
conclusion conclusion of said Surprised Attack on
the Father Life7/20/2016 While in the Direct

A-24
Continued from Appendix K
Appointment of Guardia
Physical Present of said Infant. Father and
Infant suffered Said Date July 20, 2016.
Whereas, if said Guardianship in not granted to
My Parents James Beggs and Joyce Beggs to
Protect said Infant.
I Cornelius Beggs aka Bobbitt moves the Court
to find suitable Foster Care Placement until the
conclusion of said surprised attack 7/20/2016
and moves Virginia Beach Juvenile and
Domestic Relation District Court to Appoint
Foster Parent to safeguard my infant Health,
safety and welfare of Lauryn Courtney Beggs
I Cornelius Courtney Beggs Gives my Parents
James Beggs and Joyce Beggs the Power of
Attorney to seek Legal Representation to
maintain Legal Guardianship over said infant
July 20, 2016 to protect said Infant Lauryn
Courtney Beggs with the help of her Court
Appointed Guadiana Ad Litem Cynthia King.
I Cornelius Courtney Beggs will at all times
maintain my Due Process Right’s involving my
Parental Right’s of said Infant Lauryn Courtney
Beggs. Signature /Cornelius Beggs 8-1-2016
I certify that /Signature Cornelius Beggs has
appeared before me this day of Date 8-1-2016 in
the State of Utah
^
My commission expires on 4-22-2020
State of Utah County of Emery Date 8-1-2016

A-25
Appendix L
“Order Of Appointment of Attorney Asha Pandya
With Plots showing Respondent Beverly Story as
a plaintiffs in “Petitioners Case” with Said Child
as Defendant. Who tried to educate the Virginia
Court System of her client true Disability
Virginia Code under 8.01-2 (6)(e) but with holding
the “Military Disability” with Petitioners copy not
seem or signed by Lower Court Judge puled into
Plots.”
VIRGINIA: IN THE CIRIUT COURT FOR
VIRGINIA BEACH. BEVERLY STORY plaintiff
V. LAURYN C. BEGGS, a minor, CASE NO:
CL16-4672
THIS CASE came on upon the Motion for
Appointment of Guardian ad Litem for
incarcerated Father file by Plaintiff. IS
APPEARING TO THE COURT that Cornelius C.
Beggs, that biological father of the child is a
person under a disability pursuant to 8.01-2(b)(e)
of the Code of Virginia of 1990, as amended, it is
therefore
ADJUGED.
ORDERED,
AND
DECREED as follows:
1. Asha Pandya, Esquire, is hereby appointed
Guardian Ad Litem to protect and represent the
interest of Cornelius C. Beggs, the biological
father of the minor child, in connection with all
matters pending in this Court and any appeals
that may follow therefrom. 2. Ms. Pandya fees
shall be paid pursuant 8.01-9 of the Codes of
Virginia 1950, as amended. AND THIS CAUSE
IS CONTINUED. NO SIGNTURE OF JUDGE
Entered__day of May 2017

A-26
O Appendix
Adoption Agreement
Filed December 12, 2016 Case No: 16-4672
An Agreement made on July 20, 2016 of Emergency
Custody of his Infant “Lauryn Beggs” between
Natural Father Cornelius Beggs, who resided at (5540
Finespun Last in Virginia Beach 29455), and Mother
Joyce Beggs and Father James Beggs.
Come Now, said Natural Father of Lauryn Beggs
referred to them now as adopting parents of Lauryn
Beggs who resided on July 20, 2016 at 312 South
Willard Ave. Hampton Virginia 23663, here referred
to as Adoptee. Adopting parents intends to present to
the Virginia Circuit Court of the City of Virginia
Beach, a petition in which James and Joyce Beggs
will seed a decree approving the adoption of adoptee.
The Parties agree to assume toward each other the
legal relation of parents and child. Adopting Parents
will henceforth treat adoptee as if she Lauryn Beggs
were the natural child of adopting parent. Adoptee
will henceforth treat Adoptee will henceforth treat
adopting parents as her natural parents. Both parties
will have the Rights and be subject to all the duties
and responsibilities of the relation of parents and
child. The parties agree to provide care and love of
Lauryn Grandmother “Beverly Story” along with full
visitation Rights. Pro’se James and pro ‘se Joyce
Beggs’, has executed a written consent to the
adoption agreed to in this instrument, and a copy of
the consent is attached and incorporated by reference.
In witness whereof, the parties have executed this .
agreement at the Circuit Court in the City of Virginia
Beach byway of said Petition for Adoption, on
December 16, 2016 first above written.

A-27
Agreement Between Prospective Adoptive
Parents and Natural Father
Agreement made December 15, 2016, between
Natural Father Cornelius Courtney Beggs and
James and Joyce Beggs Prospective Adoptive
Parents, husband and wife, of 312 South Willard
Ave. Hampton Virginia 23663, here as adopting
parents, and Cornelius Courtney Beggs who grants
said Petitioners James Beggs and Joyce Beggs
Emergency Custody on July 20, 2016 who also
resided at 5540 Finespun Last in Virginia Beach
Virginia 29455, here referred to as natural father.
Recitals. A. Adopting Parents desire to adopt,
pursuant to law, the Child of natural father &
mother on the child’s birth to be noted/added: with
no changes and will initiate adopting proceeding,
through said natural father’s counsel, to legalize the
adoption.
B. Natural father feels that it is in the
best interest of the child that the child be adopted
by said adopting parents and brought up by then in
their household as their child.
The same household where the natural father
gave emergency custody to James and Joyce Beggs
on July 20, 2016.
In consideration of this
agreement and other good and valuable, it is greed
as follows:
1. To cover all cost incurred in
connection with the issuance and registration of all
documents required in the adopting proceeding. 2.
Arraigner Full Love, Caring and Visitation Right’ to
Lauryn’s Grandmother Beverly Story as she
cooperate fully with Natural Father Counsel of
Legalize the adoption and said adopting parents in
the Adoption proceedings.

Additional material
from this filing is
available in the
Clerk's Office.

